            FINANCIAL            RRANGEMENTS
 BE/    TWEEN               PHYSICIANS AND HEALTH
 CARE                   BUSINESSES: PERSPECTIVES
   OF       HEALTH.          CARE PROFESSIONALS
                           Management Advisory Report




                                Richard P. Kusserow
                                INSPECTOR, GENERA




OAI- 12-88-01411                                        May 1989
                                EXECUTIVE SUMMARY


OBJECTIVES

This inspection repons on results;of interviews conducted with health care professionals and
regulatory agencies concerning the practice of physician ownership and self-referral. The pur­
pose of these interviews was to elicit infonnation on the range of opinions that exist regarding
the impact of fmancial arrangements between physicians and other health care entities to
which they refer patients. 

BACKGROUND

In the last 10 years, increasing attention has been focused on the fmancial arrangements that
exist between physicians and the health care businesses to which they refer patients. In 1980,
an influential article in The New England Journal of Medicine    by the journal' s editor,
Dr. Arnold Relman, elicited strong debate in the medical community concerning the ap­
propriateness of such arrangements and the impact that they might have on medical judgments
made by physicians in determining what services their patient's require. Since then , public
scrutiny of those financial arrangements has increased.

Despite the intense debate over this issue, few studies have been conducted to determine the
extent of such arrangements between physicians and the health care businesses to which they
refer patients, or the impact of such arrangements on utilization of services, cost and pricing,
competitiveness, and quality of care. This inspection is one in a series of repons issued by the
Office of Inspector General (OIG) on this subject.

METHODOLOGY

The OIG conducted opinion interviews with 143 State officials, 17 health care experts and as­
sociation representatives, 8 Medicare carriers and over 40 Medicare providers. These inter-
views were conducted face-to-face or by telephone.

FINDINGS

   Most respondents held strong opinions on the effect of physician ownership on the com­
   petitiveness of the market. The majority of State officials, nonphysician-owners and the
   associations we interviewed argued that physician ownership and self-referral has a nega­
   tive impact on the comp~titiveness of the health care market, since physicians control both
   supply and demand in such circumstances. Physician-owners argue that competition is
   heightened, since physician investment creates more health care entities among which to
   choose.
Cenain respondents argue that the practice can increase health care costs and diminish
quality since, without competition for referrals, providers can act freely in regard to price
and service. Title XIX, States ' attorneys, and the Medicaid Fraud Control Units (MFCU)
representatives were especially concerned about costs, although representatives from medi­
cal boards generally thought the practice has a neutral eJfect on ' both cost and quality of
care. Physician-owners suggest that their financial involvement will help to ensure good
quality of care and have no detrimental affect on costs.

Respondents were split on whether Congress should act to regulate such arrangements.
The majority of physician-owners and State Board representatives argued against Congres­
sional action; most MFCU officials, title XIX officials, l1onphysician-owners and most of .
the associations we intervie~ed argued for various kinds of congression~ intervention.
                         ............................................
                              ........................................
                         .................................
                    ............. ......................... :..........
                                                            ...........

                                  TABLE OF CONTENTS


EXECUTIVE SUMMARY


INTRODUCTION




               Background...........................................
             Objectives.

               Methodology ..........................................


FINDINGS




FUJ:=ITHERREPORTS




                                             ill
                                                     , "





                                                   INTRODUCTION€


 BACKGROUND€

 In the la~t 10 years, increasing attention has been focused on the financial arrangements that€
 exist between physicians and the health care businesses to which they refer patients. In 1980,€
 an influential article in   The New England Journal of Medicine  by the journal' s editor, Dr.€
 Arnold Relman, elicited strong debate in the medical community concerning the appropriate-€
 ness of such arrangements and the impact that they might have on medical judgments made by€
 physicians in determining what services their patients require. Since then, public scrutiny of€
 those financial arrangements has increased. €
 In 1982 , the Subcommittee on Oversight and Investigations, Committee on Energy and Com-
 merce, U. S. House of Representatives, expressed its concern regarding the emergence of such
 arrangements. In 1988, a bill was introduced in the U. S. House of Representatives that would
 generally prohibit physicians from referring their patients to health care businesses in which
 they hold fmancial interests. That bill The Ethics in Patient Referrals Act, " was reintroduced
 in 1989 and is now pending. The Subcommittees on Health and Oversight, Committee on
 Ways and Means held a joint hearing on the bill in March 1989. Further hearings are an-
 ticipated.

  Despite the intense debate over this issue, few studies have been conducted to determine the€
  extent of such arrangements between physicians and the health care businesses to which they€
  refer patients, or the impact of such arrangements on the use of services, cost and pricing, com-€
, petitiveness, and quality of care. This inspection is one in a series of repons issued by the€
  Office of Inspector General (OIG) on this subject. €

 OBJECTIVES€

 Section 203(c)(3) of the Medicare Catastrophic Coverage Act of 1988 mandated the Office of€
 Inspector General to conduct a study and repon to Congress concerning:€

      physician ownership of, or compensation from, an entity providing items or services to€
      which the physician makes referrals and for which payment may be made under the€
      Medicare program;€


      the range of such arrangements and the means by whi ~h they are marketed to physicians;

      the potential of such ownership or compensation to influence the decision of a physician€
      regarding refeITals and to lead to inappropriate utilization of such items and services; and€

      the practical difficulties involved in enforcement actions against such ownership and com-€
      pensation arrangements that violate current anti-kickback provisions.€
        . '




              As pan of this study, the Office of Inspector General interviewed State officials, industry and
              association representatives, Medicare carriers, and Medicare providers regarding their perspec-
              tives of physician ownership and self-referral. This inspection repons on the results of those
              interviews. The purpose of the interviews was to elicit information regarding the range of
              opinions that exist on the impact of fmancial arrangements between physicians and other.
        I     health care entities to which they refer patients.


              METHODOWGY€

              The OIG conducted opinion interviews with the following:€

          . (1)€ one hundred and fony-three State officials in 50 States representing Medical Licensing
                 Boards responsible for the liCensing and disciplining of physicians, title XIX agencies
                    responsible for administering State Medicaid programs, Medicaid Fraud Control Units
                    (MFCUs) and State Attorney General' s offices responsible for pursuing cases of
                    Medicaid fraud and abuse;

              (2)   seventeen health care expens and representatives from numerous associations, includ-
                    ing the American Medical Association, American Imaging Association, American Clini-




.,.c.
              (3)
                    America;
                    cal Laboratory Association , American Society of Internal Medicine, American College
                    of Radiologists, College of American Pathologists, and Consumer Federation of


                    eight randomly-selected Medicare caniers responsible for review and processing of Part
                    B claims submitted by providers, including Travelers of Connecticut, Empire of New
                    York, Blue Shield ~f Florida, Blue Shield of Kansas City, Blue Shield of Michigan
                    Occidental of California, Blue Shield of Arkansas, and Nationwide of West Virginia;

              (4)   a subsample of over 40 Medicare providers selected in our national survey of providers,
                    consisting of both physician-owners and nonphysician-owners.
                                          FINDINGS€

Most respondents held strong opinions on the effect of physician ownership on the competitive-€
ness of the health care market. Some respondents strongly feel that the practice   increases

competition by expanding the number of health care providers, while others feel just as€
                                 monopoly for physicians in the market.€
strongly that the practice creates




Health care providers and experts' are split on the competitive effects of physicians ownership
and self-referral. Physicians who , have become involved in such arrangements, and the as-
sociations that represent them, argue that their investments increase competition in the health
care market by creating new entities providing services. Some observers, including health
care providers who comp ete with physician-owners, see the practice as anti-competitive, with
higher potential for overutilization of services and higher cost to consumers. Most State offi-
cials we interviewed agree with this view, although representatives from medical boards were
less inclined to view the practice as anti-competitive than colleagues in the Medicaid Fraud
Control Units (MFCUs) or title XIX offices.

Nineteen of the 24 physician-owners we interviewed (79 percent) believe their investments€
either contribute to increased competition or have a neutral effect on the market. Several
physician-owners we interviewed argued that physicians see the need for service in a com-€
munity before others, and consequently can contribute to improving access and the€
availability of services through prudent investment. They suggested that such investments€
also can enhance ,fpmpetition by creating more health care entities from which patients can€
choose and that independent, non-physician owned entities simply resent the introduction of€
new competitive forces in the marketplace. Proponents of this view cite the 1987 Federal€
Trade Commission position that physician ownership and referral has pro-competitive effects,€
including increased investment activity by physicians who identify a need in tb.eir community€
and physician oversight to ensure better quality care for their patients.€

Fifteen of the 23 nonphysician-owners (65 percent), 27 of the 36 :MFCU representatives (75
percent), and 25 of the 49 title XIX representatives (51 percent) we interviewed believe the
practice is essentially anti-competitive. For example, one :MFCU director stated that based on
his experience , physicians would " invariably " refer their patients to the entity in which they
had an interest. A director of a Medicaid agency in another State feels that " when a physician
owns another health care entity he/she naturally refers each patient to his/her own facility, ex-
cluding other" facilities which may be better or less expensive.


Eleven of the 17 associations consulted (65 percent) shared this view. One association repre-
sentative argued: that other entities competing With the captive entity can not fairly compete on
the basis of price , quality or service-- because no matter how competitive they are in these
areas, the physician will always refer to the entity in which he or she ha~ an economic interest.
 The physicians-owners are not putting their referrals into the stream of commerce, " one con-
sumer advocate argued. " EventUally a deterioration in price and quality will result where com-
petition does not exist
                                              .,...




Respondents generally felt that the practice has little effect--either positive or negative--on
quality of care. However, different respondents again argued both sides.

Sixty-seven percent of the State officials interviewed. felt that physician ownership has no ef-
fect on quality of care or had no opinion on the matter. Nonphysician-owners were the most
likely group to see the practice as detrimental to quality of care; almost half of the non-
physician-owners we interviewed expressed this opinion. Physician-owners were the most
likely group to believe the opposite; 16 of 24 , or 67 percent; considered their investments to
have a positive effect on , the care patients receive.

The respondents who consider physician ownership and self-referral to have a positive impact
on health care feel it is primarily due to the physician s knowledge and concern for the busi-
ness. One respondent stated that physician ownership of health care entities to which they
refer " provides continuity of care and could possibly assure better quality of care. " Some
respondents thought that quality assurance would be a higher priority with physician-owners
or investors.

Other respondents thought that physicians might make good managers because they have a
working knowledge of the product and services delivered. Some respondents , however, chal-
lenged this view. " In the limited partnership arrangements, " argued one association repre-
sentative, " physicians have absolutely no connection with the management or day to day
operations. How can a limited partner ensure quality?"

Many physician-owners interviewed cited the ability of their investment dollars to meet a com-
munity need as one way to increase quality of care on a general scale. Accessipility of ser-
vices in rural and remote regions was stated as a possible advantage of physician investment
in health care enterprises by several respondents. One Medicaid official noted: " If the
physician sets up in a rural area where no health care businesses exist, it is a defmite benefit to
the community. " 

Most of the concerns expressed regarding quality of care were related to unnecessary testing.
For example, one State official maintained that " poor or inadequate care may result if the
physician is solely motivated to provide additional services from his business arrangements in
order to increase revenues. " A nonphysician-owner argued that , in situations where a
physician has a financial interest in another health care business, " (vJolume takes precedence
over quality and medical necessity.


The individuals \ve interviewed disagreed on the impact of physician ownership and self-refer-€
ral on the total cost of health care. Generally, those who believe competition will decrease 

a result of these arrangements believe costs will eventually increase. Others believe that ar-€
rangements between physicians and health care entities will have no impact on cost;            small€
minority believe costs will decrease.€
  Respondents further disagreed on the effect of such arrangements on the total cost of health€
  care. The MFCU and title XIX officials were especially concerned that financial arrangements€
  between doctors and other health care businesses will increase costs. Representatives of medi-€
; cal boards and physician-owners believe costs will neither increase nor decrease as a result of€
  such arrangements. Few respondents in any of the groups we,interviewed believe costs would
  actually decrease as a result of physician financial involvement in the market.€

 Of those expressing concern regarding .higher costs, one State official remarked that " the finan-
cial incentives cause the costs to rise. " Another stated: " If the physician is fmancially
motivated, the obvious result will be an increase in prices. " The director of a Medicaid
agency feels that " physicians control the marketplace and drive up the costs. ' They have a cap-
tive audience for their products and the patients invariably go where their doctor has sug-
gested. " Some respondents argued that the issue of cost is directly related to the issue of
competition; where competition is dimiJlished, providers can raise prices with impunity.
These respondents believe that physician ownership impede competition and creates the pos-
sibility for inefficient and costly health care.

Of the smaller group (4 percent of State officials, 25 percent of physician-owners) who feel€
costs would decrease as a result of physician ownership and self-referral, several believe that€
if doctors own a facility the proximity of the facility and the convenience to the doctor may€
decrease the cost to the patient. This group shared the view that the competitive impact of€


increase. €
physician ownership and investment affects costs; but they argue that the

tion created by new providers entering the market will cause prices and costs to
                                                                                 increased

                                                                                           decrease,
                                                                                                     competi-€
                                                                                                          not€



Respondents generally agreed that ethical questions come into consideration when 


physician-owner refers a patient to an entity in which he or she has                 financial interest.

Both those supporting and opposing physician ownership and referral believe that such arran-€
gements can result in ethical dilemmas for physicians. Nineteen of the nonphysician-owners€
(83 percent), 13 of the associations (93 percent), and 13 of the physician-owners (53 percent)
we interviewed believe that a conflict of interest may exist with respect to such arrangements.€
One- third of the representatives interviewed from State medical boards cited potential conflict€
of interest as a disadvantage of the practice. .€

    s just one more factor other than medical necessity which can influence a physician
decision " one respondent said. An association representative noted that, when a doctor orders
a service or item , he acts as the consumer for the patient and should not have a competing
fiduciary intere st. " Medical ethics aside, this pra~tice violates tenets of basic business ethics,
he argued. However, physician-owners and others that are supponive of the practice suggest
that physicians can deal with ethical issues that arise and make the right decision. " .s in the
eye of the beholder " one physician-owner said. " It depends on whether the physician allows it
to cloud his decision-making.
Not surprisingly, respondents disagreed on the needfor Congress to legislate in this area.

Thirteen of the physician-owners (54 percent) and 26 of the State board representatives (57
percent) we interviewed did not believe that congressional intervention in this area is war-
ranted. These respondents believe that abusive arrangements, when they exist , should be ad-
dressed on a case- by-case basis. Nonphysician-owners (87 percent) and the association
r~presentatives (65 percent) we spoke to tend to argue that congressional intervention is
needed. The IvIFCU representatives, States ' attorneys, and title XIX representatives agreed.

Physician-owners argue that post-payment and utilization review by third party payors is suffi­
cient to address over-utilizers and abusers of the system, and that legislation to prohibit owner-
ship will simply "'bun the 99 percent of the physicians who are honest. " Most of the State
respondents opposin.g congressional action believe physician ownership to be a State issue.
Others oppose congressional intervention because they feel physician ownership is not a
problem. " This is small ticket stuff, insignificant in terms of the total dollars being spent on
health care, " one official argued. One respondent felt that " there are much more important
health issues and national problems than physician ownership.

The majority of MFCU representatives, title XIX officialS, States ' attorneys, and nonphysician-
owners suppon Federal legislation of some kind. Many suppon laws to generally prohibit
physicians from referring patic:mts to a health care entity in which they have a financial inter­
est. Others advocate mandated disclosure of financial interest, or simply want Congress to
draw the line between legitimate and illegitimate arrangements.
.'



                                       FURTHER REPORTS€

     On May 1 , 1989 , the GIG reported to Congress on the areas outlined in Section   203(c)(3)

     the Medicare Catastrophic Coverage Act. This report, " Financial Arrangments Between
     Physicians and Health Care Businesses: Repon to Congress, " (OAI- 12- 88-01410), detailed in-
     fonnation obtained from OIG surveys in regard to the nature , range and prevalence of owner-
     ship and compensation arrangements between physicians and health care businesses.
     Information from the Medicare Part B Annual Data (BMAD) files was used to assess the use
     of selected ancillary services of patients associated with physician-owners or investors, as
     compared to the use of ancillary services of Medicare beneficiaries in general. Finally, the
     repon detailed the enforcement experiences of the GIG in connection with physician owner-
     ship or compensation arrangements which violate Federal anti-kickback laws.

     The GIG also issued a Management Advisory Repon in April 1989, " Financial Arrangements
     Between Physicians and Health Care Businesses: . State Laws and Regulations,
     (GAI- 12- 01412). This repon described certain State laws and regulations which affect
     physician ownership and self-referral.€

     The OIG will produce additional repons on the subject of financial arrangements between
     referring physicians and other health care businesses. Repons focusing on physician owner-
     ship and other market forces in the independent clinical laboratory, independent physiological
     laboratory and durable medical equipment industries will be issued in fall 1989.
